         Peace Corps
         Office of Inspector General




Peace Corps/Morocco Assessment of Medical Care
                                      February 2010
This assessment specifically looked at PC/Morocco and PCV           healthcare, but the
question of whether this was a one-time failure or an indication of a larger systemic
problem throughout Peace Corps operations remains. The facts and circumstances
surrounding this case call into question the efficacy of Peace Corps‟ structure, execution,
and oversight of overseas health units.




                                                                                          ii
                                               Table of Contents


EXECUTIVE SUMMARY ................................................................................................. i

BACKGROUND ................................................................................................................ 1

OBJECTIVES, SCOPE, AND METHODOLOGY ............................................................ 2

ORGANIZATION AND PROVISION OF ........................................................................ 3

HEALTH CARE TO VOLUNTEERS ............................................................................... 3

LIST OF RECOMMENDATIONS .................................................................................. 14
                                        BACKGROUND

The Peace Corps program in Morocco (PC/Morocco) is the second largest Peace Corps
program in the world. Since 1963, over 4,000 Volunteers have served in Morocco. As of
November 17, 2009, the agency reported that 254 Volunteers were serving in Morocco.
There are two incoming training cohorts of Volunteers each year. Volunteers are
assigned to projects in four primary areas: youth development, health, environment, and
small business development.

Volunteer sites are broadly dispersed within Morocco‟s mountainous and sometimes
hard-to-access terrain. Although placing Volunteers in remote locations is standard
throughout Peace Corps, it underscores the importance of the professional judgment of
the PCMO to determine when a Volunteer needs to be seen in person by a PCMO or can
be cared for locally. It also underscores the importance of site visits by PCMOs, which
are critical to 1) assess the medical resources available in proximity to a Volunteers site,
2) build relationships with providers, and 3) assess a Volunteer‟s environment and get a
first hand view of the environment in which they live.

PC/Morocco has three full time PCMOs. Two are medical doctors and one is a registered
nurse. There is one administrative medical assistant for the PC/Morocco health unit. All
are host country personal services contractors. Only six hospitals in major cities have
been pre-approved for Volunteer health care by the health unit. Volunteers must receive
PCMO approval to receive health care at one of these facilities and they are not allowed
to visit unapproved local providers except in emergencies.

In June 2009, the OIG conducted a program evaluation of PC/Morocco.1 The OIG
interviewed 42 Volunteers (approximately 20% of the Volunteer population) and 15 in-
country staff. Eighteen of the 42 Volunteers (43%) reported concerns with the quality of
medical support at the post. With regard to health findings, the OIG evaluation found
that both PCMOs and Volunteers reported that the quality of medical support was
impacted by the health unit‟s large volume of work. Volunteers reported that PCMOs
were frequently too busy to fully investigate their medical complaints. In interviews with
two of the three PCMOs in the health unit, both reported a need for additional staff
because they did not have enough time to conduct all their duties, including site visits.2
The evaluation also disclosed that Volunteers lacked confidence in medical opinions and
feared being misdiagnosed.



1
  The OIG briefed the PC/Morocco country director of its program evaluation findings on June 24, 2009
and the Europe, Mediterranean, and Asia (EMA) regional management on July 8, 2009.
2
  According to PC Technical Guideline 200, there are no fixed staffing ratios of PCMOs to Volunteers due
to a variety of mitigating factors; however, as a general guideline, a post with good medical support should
not have more than 80 Volunteers per PCMO. At the onset of this evaluation there were 86 Volunteers per
PCMO.

                                                                                                           1
The Office of Medical Services conducted an assessment of PC/Morocco in June 2009,
which coincided with the fieldwork portion of the OIG evaluation. OMS determined that
an additional part-time PCMO is needed to meet the current physical and mental health
care demands at the post and recommended an additional part-time PCMO when the
year-round number of Volunteers exceeds 240. The OIG concurred that such a hire
would address the concerns raised during the OIG evaluation.


           OBJECTIVES, SCOPE, AND METHODOLOGY
The purpose of the Office of Inspector General is to prevent and detect fraud, waste,
abuse, and mismanagement and to promote effectiveness and efficiency in government.
In February 1989, the Peace Corps/OIG was established under the Inspector General Act
of 1978, as amended, and is an independent entity within the Peace Corps. The Inspector
General (IG) is under the general supervision of the Peace Corps Director and reports
both to the Director and Congress.

To address Director Williams‟ request, the Inspector General assembled a multi-
disciplinary team consisting of members from the OIG‟s evaluation and investigation
units. The Inspector General also contracted the services of two independent medical
experts who reviewed PCV        ‟s medical records and assessed medical operations at the
post. An OIG investigator and one of the expert physicians conducted interviews of PCV
‟s host family and colleagues in Tamegroute the doctors who evaluated and treated       at
hospitals in        ,                  and              ; and all three Peace Corps
Medical Officers (PCMOs). At no time during this assessment did the two consultant
physicians communicate with each other; however, both physicians came to similar
conclusions about the circumstances and causes related to the illness and death of PCV
. The OIG issued a separate report detailing these conclusions.

The OIG conducted over 30 interviews at PC/Headquarters, PC/Morocco, and Moroccan
health facilities. We also interviewed numerous Volunteers, spoke to the Volunteer
Action Committee (VAC) and Volunteer Support Network (VSN), and addressed the
Youth Development and Small Business Development Volunteers who were in Rabat for
their mid-service medical exams.

We conducted in-country fieldwork between December 5 and December 19, 2009. Site
visits included Peace Corps operations in Rabat, PCV      ‟s site and youth development
center in              , the            in          , the                            in
f            , and the          in              .

The OIG reviewed applicable policies and technical guidelines, handbooks, medical
records, personnel files, and other pertinent documentation. As part of this assessment
we examined the skills and experience requirements of the PCMO position, the PCMO
hiring process, the PCMO reporting structure, and the PCMO performance evaluation
process. We also examined various functions within the Office of Medical Services and
the way in which the quality of health care provided to Volunteers monitored.

                                                                                          2
                  ORGANIZATION AND PROVISION OF
                   HEALTH CARE TO VOLUNTEERS
Peace Corps trainees‟ and Volunteers‟ health needs are addressed through the in-country
Volunteer Health Program. Medical Technical Guideline 110 (TG 110) defines the
purpose of the in-country Volunteer health program and outlines the roles and
responsibilities of the in-country staff toward the program. It states that the provision of
health care services to Volunteers should conform to U.S. medical standards and norms
within the limitations imposed by local conditions.

The core functions of the in-country Volunteer Health Program are to:
       Support Volunteers in assuming responsibility for their own health.
       Promote the health of Volunteers and prevent disease.
       Provide health services to Volunteers overseas in as safe, efficient, and timely a
       manner as possible within the particular host-country environment.
       Provide medical evacuation (medevac) to Volunteers who require medical care
       beyond the care available in-country.

The roles and responsibilities of Peace Corps overseas staff in the in-country Volunteer
Health Program are outlined as follows:

       The Country Director oversees all in-country programs, including the in-
       country Volunteer Health program, and is ultimately responsible for the
       safety and well-being of Volunteers.

       The PCMO, as delegated by the CD [country director] and OMS, is
       responsible for establishing and managing the in-country Volunteer health
       program. The PCMO acts as both a program manager and clinician. The
       program management responsibilities of the PCMO are similar in all
       countries but clinical responsibilities vary depending on the country and
       on the PCMO‟s training and expertise. CDs and PCMOs should be
       familiar with the duties and responsibilities as outlined in their individual
       personal services contracts.

       Area Peace Corps Medical Officers (APCMOs) are assigned to the Africa
       region to provide clinical and programmatic support to the in-country
       Volunteer health programs. APCMOs are based in a host country and are
       responsible for providing assistance to the Volunteer Health program in
       each country of their sub-regional area.

PCMOs are personal services contractors. Per Peace Corps Manual (PCM) section 261,
each post will have a PCMO, who may be a physician, nurse practitioner, registered
nurse or a physician‟s assistant. The health professional skill level needed at post is
designated by the Office of Medical Services. The regional director, in consultation with

                                                                                               3
the country director, selects the post‟s PCMO after OMS determines that the individual
has the professional qualifications necessary to meet the health needs of the post.3

PC/Morocco has three full-time PCMOs. Two are physicians and one is a registered
nurse.

Accountability and Reporting Lines

While OMS is responsible for providing in-service health care to Volunteers and trainees
(V/Ts) by developing and managing a comprehensive health care program, including the
delivery of medical care and health services and medical evacuation and providing
clinical oversight of and training and consultation for PCMOs, OMS must coordinate
responsibility and oversight of the health care system with the Regions. Health budgets
for posts, including PCMO positions, as well as APCMO positions are not managed by
OMS. OMS and region staff report that when conflicts arise, OMS generally makes the
“medical” decisions, but that the region will make the decisions concerning “operations.”
In interviews, OMS staff raised concerns about conflicting funding priorities, the skill
levels of local medical officers, whether more U.S. hired medical officers are needed, and
the lack of OMS clinical supervision of PCMOs.

Throughout Peace Corps worldwide, the country director, the APCMO, and OMS have
shared authority and professional oversight responsibilities for the PCMO position.4
According to Peace Corps policy and guidelines, all parties are involved in the PCMO
hiring process. OMS determines the health professional skill level needed at a post, but
country directors must recruit and select candidates and justify contracting with non-host
country nationals. OMS, the country director, and the APCMO, when present, are
involved in the annual PCMO performance management process. While the APCMO‟s
oversight responsibilities for the PCMO are defined in PCM section 261, for those posts
without an APCMO, it is unclear how OMS performs the clinical oversight function for
PCMOs.

Peace Corps did not provide sufficient oversight of the PC/Morocco in-country health
program.

Per TG 110, PCMOs must seek prompt consultation with OMS for all health conditions
that may place a Volunteer at high risk of morbidity or mortality.5



3
  The Peace Corps Manual refers to both the country director and regional director regarding the hiring of
PCMOs. The country director selects and enters into contracts with host country PCMOs. The regional
director approves staffing levels and hires U.S. direct hire employees.
4
  Africa is the only region that currently uses the APCMO model. However, there have been on-going
discussions between OMS, EMA, and Africa since the June 2009 OMS visit about making PC/Morocco a
medical evacuation site and placing an APCMO in Rabat. Organizationally, PC/Morocco falls in the EMA
region which does not follow the APCMO model. The proposal for the APCMO in Morocco involves
shared funding.
5
  Peace Corps does not have a standard definition of morbidity.

                                                                                                         4
Per TG 370, a field consultation inquiry should be sent to OMS if a Volunteer has a
significant illness or any clinical situation that requires information, resources, or
expertise that exceeds the training, skills, or qualifications of the PCMO and local
consultants. The field consultation process makes it possible for posts to contact
headquarters to utilize medical resources and specialists in the U.S. to inform and
respond to urgent medical situations.

An OMS Medical Duty officer is available 24 hours a day, seven days a week and is
expected to respond to field consultation calls within 20 minutes. Both of these situations
require that the PCMO make the determination about when and if to involve OMS for
guidance.

The PCMOs responsible for PCV/          ‟s care did not contact OMS for a field
consultation. In fact, OMS was notified about PCV           ‟s medical condition less than
one hour before        died. OMS staff and OIG medical experts have put forth that it is
not clear that the outcome would have been any different had OMS been contacted on the
morning of November 15, 2009 when             presented with     at                         .
OIG medical experts have put forth that an earlier diagnosis and intervention identifying
the                 may have prevented                                                 from
evolving into                 .           According to International Guidelines           ,
                                timeframe to from initial diagnosis to hospital-based
treatment is important to reduce the mortality rate. Had OMS been contacted earlier, a
dialogue could have occurred about the best course of action for        situation, including
whether or not to medically evacuate        . There was no request to OMS to medically
evacuate PCV         .

As demonstrated in PC/Morocco, substantial responsibility is placed on the professional
judgment of the individual PCMO. If a PCMO fails to recognize that a volunteer is at a
high risk of morbidity, mortality or has a significant illness, there appears to be no
mechanism to ensure the case is escalated and receives the appropriate attention. Peace
Corps lacks effective mechanisms to prevent or mitigate failures of this magnitude.


               We recommend:

               1. That the agency assess whether resources and expertise are
                  aligned to provide sufficient oversight to overseas health
                  units.

               2. That OMS develop an effective mechanism for closer
                  clinical oversight for PC/Morocco.

               3. That OMS develop standard definitions of morbidity and
                  significant illness.

               4. That PC/Morocco develop a medical escalation policy.

                                                                                            5
PC/Morocco does not have a clear policy on transferring patient information when
there is a transfer in care.

The PC/Morocco medical unit operates the in-country Volunteer health program in
Morocco and provides health care services to Volunteers 24 hours a day, seven days a
week. The primary means for casework collaboration in the PC/Morocco health unit is
through a rotating medical duty officer system that transfers on-call responsibility
between the PCMOs on a weekly basis, from Monday to the following Monday.
According to information received in interviews with the PCMO staff, a meeting is held
each Monday during which the PCMO that is transferring his/her duty shares new or
pending case information with the PCMO beginning duty. However, there are no formal
requirements for transfer and documentation of patient information if there is a transition
of care. The PCMOs in Morocco do not have regular team meetings to discuss medical
cases other than the Monday work transition meeting.

The OIG found a lack of clear policies about when and what the PCMOs should
communicate with each other. Additionally, PCMOs reported that their chart
documentation was not fully complete. PCMOs also reported that they were not always
able to review patient charts before attending to them because of incomplete information
or if a duty call was received when they were not onsite at the medical office. One
PCMO reported that he carries a duty handbook with pertinent information for all
Volunteers, should he receive a duty call offsite. The OIG reviewed the information in
his duty handbook pertaining to PCV         and determined that it did not contain current
information. These factors adversely impacted the quality of health care provided to
PCV         and were the source of many complaints received from other Volunteers
serving in Morocco during the June 2009 OIG evaluation and as part of this assessment.

During interviews with the OIG, several Volunteers voiced concerns about information
not being shared between PCMOs. They stated that they would call the medical unit to
discuss their symptoms but if their next contact was not with the same PCMO, they
would be required to rehash their symptoms. Volunteers also raised communication
concerns with the medical unit including language barriers, as English is not the PCMOs‟
first or primary language, and that being diagnosed over the phone limited Volunteers‟
ability to communicate their symptoms or health care concerns. Both the PCMOs and
Volunteers recognized limitations with “telephone medicine.” While telephone medicine
is typical throughout Peace Corps worldwide because of the remote locations in which
Volunteers are placed, the OIG found no telephone triage policy to standardize this
approach to medical care. The OIG also found no standard requirement for Volunteers to
be placed within a defined distance from medical care.


               We recommend:

               5. That OMS and PC/Morocco develop a telephone
                  triage policy for PC/Morocco.

                                                                                             6
               6. That OMS and PC/Morocco develop a clear policy
                  and procedures to ensure that patient information is
                  documented and transferred appropriately if there
                  is a transition in care.

PCMO Skills and Experience Requirements

According to PCM section 261, each post has at least one PCMO, who may be a
physician, nurse practitioner, registered nurse or a physician‟s assistant. OMS determines
the PCMO professional skill levels and qualifications necessary to meet the health needs
of the post. Following approval from OMS, the regional director selects each PCMO in
consultation with the country director.

Further explanation is given in Technical Guideline 200, which states that when in-
country medical services are limited or unavailable, "an advanced practice PCMO, e.g., a
physician's assistant, nurse practitioner or physician is generally required." PCM section
743.11 further directs that “it is Peace Corps policy that contracts for medical services be
Personal Services Contracts and that host country medical practitioners be utilized unless
it can be shown that no suitable candidates can be found in the host country or that
special conditions exist that require a US or TCN [Third Country National] medical
professional.” It also states that the country director will solicit PSC candidates only
after consulting with the Director of OMS regarding selection criteria and that country
directors review the medical qualifications of all prospective medical services contractors
with and obtain written concurrence from the Director of OMS prior to awarding the
contract.

The current oversight structure does not ensure that clinicians are practicing within
their scope.

PC/Morocco has three full-time PCMOs who are locally hired PCSs. Two are physicians
and one is a registered nurse. The PC/Morocco PCMO Statements of Work (SOWs)
reviewed by the OIG state that acceptable skill levels for this post include nurse
practitioners, physician assistants, registered nurses (RNs), or physicians. The SOWs
state that PCMO activities are subject to the ultimate responsibility and authority of the
country director in conjunction with medical supervision and guidance from OMS. Their
responsibilities, as reflected in the SOWs, do not differ. The PCMOs report that the
registered nurse does not conduct                 or              ; however, these areas are
not restricted in his statement of work. Additionally, all of the PCMOs reported that the
medical doctors are available to help should the registered nurse determine he needs
assistance.

OMS staff reported that there are very successful PCMOs who are registered nurses but
recognized that in the United States, RNs do not provide direct healthcare. OMS staff
stated that they have been trying to address this limitation by placing RN PCMOs with
medical doctors within a medical unit. While this may be the case, the OIG found no

                                                                                           7
agency guidance for delineation of duties or an oversight structure for PCMOs with
different skill sets.

Because clinical oversight in the field is minimal, it is especially important during the
PCMO hiring process to assess a practitioner‟s professional judgment. Prior to February
2007, OMS‟ involvement in the PCMO hiring process was to perform a credentials check
to vet a candidate that was selected by a country director. OMS staff stated that most
country directors do not have the medical expertise to evaluate potential PCMOs. In
February 2007, the PCMO hiring process changed to include an OMS assessment of
English skills and a few clinical questions before a final PCMO selection is made. OMS
further refined this process in October 2009 to include a behavioral interview of common
clinical scenarios. All current PCMOs in Morocco were hired prior to the February 2007.

Even though current policy and guidelines dictate that OMS determines the skill set or
mix of skill sets required for a medical unit and state that “…clinical responsibilities [of
the PCMO] vary depending on the country and on the PCMO‟s training and expertise…,”
current clinical oversight mechanisms do not address areas like the medical unit structure
and medical case management or ensure that providers are practicing within their
professional scope.


               We recommend:

               7. That OMS develop a policy on scope of practice.

               8. That OMS develop an oversight mechanism to ensure
                  sufficient clinical oversight of scope of practice.

               9. That Global Operations, OMS, and OACM ensure
                  personal services contracts specify and delineate
                  PCMO clinical responsibilities, particularly when
                  they differ based on level of training or experience.


Recommended actions to address current PCMO skill and requirements needs in the
PC/Morocco Health Unit have not been resolved.

In June 2009, the OIG conducted a program evaluation in Morocco Eighteen of the 42
Volunteers (43%) interviewed reported concerns with the quality of medical support at
post. With regard to health findings, the OIG evaluation found that both PCMOs and
Volunteers reported that the quality of medical support was impacted by the health unit‟s
large volume of work. Volunteers reported that PCMOs were too busy to fully
investigate their medical complaints. In interviews with two of the three PCMOs in the
health unit, both reported a need for additional staff because they do not have enough
time to conduct all their duties, including site visits. The evaluation also disclosed that
Volunteers lacked confidence with medical opinions and feared being misdiagnosed.

                                                                                          8
OMS conducted an assessment of PC/Morocco in June 2009, which coincided with the
fieldwork portion of the OIG evaluation. OMS determined that an additional part-time
PCMO is needed to meet the current physical and mental health care demands at the post
and recommended an additional part-time PCMO if the year-round number of Volunteers
exceeds 240. The OIG concurred that such a hire would address the concerns raised
during the OIG evaluation.

More specifically, the Director of OMS did not find any issues of malpractice or
inappropriate conduct, but found that Volunteers in Morocco had insufficient emotional
support and expressed a strong desire to talk to an Anglophone healthcare provider from
a western background. Subsequently, he recommended the post hire an additional .5 full-
time equivalent (FTE) PCMO, and that this person be a female U.S. nurse practitioner or
U.S. physician to assist with communications, cultural adaptations, and mental health
support. Additionally he recommended making PC/Morocco a medical evacuation site
and placing an APCMO in Rabat. Per his report, “the APCMO would be an OMS staff
member who would work with current PCMOs to ensure the highest quality of care is
offered to PCVs.” Though it is not explicitly stated in his report, the OIG recognizes that
placing an APCMO in Morocco would provide closer clinical oversight by OMS to
PCMOs in Morocco.

At present, the recommended .5 FTE PCMO position has not been filled, although in a
memo dated December 17, 2009, the EMA Chief Administrative Officer certified that
funds were approved for the position. Since November 29, 2009, a temporary duty U.S.
hire Peace Corps Medical Contractor has been working in Rabat to provide the medical
unit with extra support.

Additionally, discussions have been ongoing between OMS and the EMA region
regarding placing an APCMO in Rabat. The OIG team medical experts recommend that
the agency give serious consideration to hiring more American physicians to serve as
APCMOs overseas so that all PCMOs would be more closely clinically supervised by an
American-trained physician.


               We recommend:

               10. That PC/Morocco hire a U.S. or third country
                   national PCMO or APCMO to provide closer
                   clinical oversight to PC/Morocco’s health unit.

               11. That OMS assess ways to increase clinical
                   supervision of PCMOs, in accordance with
                   American standards, and work with Global
                   Operations to implement the needed changes.

PCMO Performance Management

                                                                                          9
Overall, the performance evaluations for all three PCMOs in Morocco indicated that they
met or exceeded all the requirements and included positive comments from OMS staff
and the former and current country directors.

PCMOs are evaluated annually following the Continuing Medical Education
conferences. The performance evaluation is a multi-part process involving the country
director, OMS, and the PCMO. In the Africa region, the APCMO plays a role in the
performance evaluation process. The PCMO Performance Evaluation process, as
outlined in Technical Guideline 112, suggests data sources for assessing components of
PCMO performance. It does not require that “customer” or Volunteer feedback be
gathered or used as part of the evaluation process. OMS staff reported that a major
evaluative challenge is the lack of close clinical supervision.

Additionally, the performance evaluation for PC/Morocco‟s RN PCMO includes a
reference to a mentoring report from the unit‟s senior medical doctor PCMO, the
unofficial “boss” of the unit, which includes the following comment: "Understands the
importance of following TG [technical guideline] and seeking prompt consultation with
OMS for all health conditions that may place a Volunteer at high risk of morbidity." It
also includes a suggestion to "continue on-the-job training in Mental Health and GYN."

PCMO concerns about their workload and the growing Volunteer population have not
been addressed.

In their self assessments since 2007, the PCMOs in Morocco have repeatedly stated the
challenges that the growing Volunteer population has presented to the Health unit. Since
2007, the PCMOs set forth goals to carry out site visits to Volunteers to identify and
evaluate local health care resources and build local provider networks, especially in
remote areas, as well as to build relationships with Volunteers. In interviews with the
OIG, each PCMO stated that they did not have sufficient time to conduct all of the work
that was required. With a finite amount of resources and a scope of work that goes
beyond that, it is left to the PCMO to prioritize his or her activities.

The OIG assesses that despite the issue of insufficient staffing having been raised in a
standard agency process that includes all parties responsible for oversight since 2007, the
issue was not addressed by agency or post management. In fact, Volunteer population in
Morocco has continued to increase.


Quality Assurance and Quality Management

Per the FY2009 Performance and Accountability Report, “The health of Volunteers is
one of the agency‟s top priorities, with individuals serving around the world in a variety
of challenging environments. Volunteer satisfaction is just one of many components of
health that the agency monitors and evaluates…” However, the agency-level
performance indicators for performance goal 5.1.2 a-c to “provide quality medical and

                                                                                         10
mental health services to trainees and Volunteers” are measured only by Volunteer
satisfaction.

The standard assessments currently conducted by OMS did not, and would not identify
the issues raised with PCV        medical care. The current assessments do not assess
work environments, reliability, communication failures, lapses in patient transitions,
ineffective teamwork and collaboration, or ensure that a clinician is practicing within his
or her scope of practice. Regardless of whether these areas are “programmatic,” overseen
by the country director, or “clinical,” overseen by OMS, they are critical to the success of
a health unit. Additionally, as noted in the previous section above, even if the overseeing
parties are aware that all required work for the health unit is not being completed, no
action has been taken to remediate the situation.

One of OMS‟s charges is to monitor health care provided to Volunteers in order to assure
quality and accountability of clinical processes. This large task is carried out by multiple
parties in OMS, but primarily by the Clinical Programs Unit and the Quality
Improvement Unit. Per OMS staff, the overall quality of medical care at posts is
primarily assessed by the following: the Biennial Volunteer Survey (BVS) on satisfaction
with medical care; OMS site visits, which occur approximately every three years and
include a meeting with Volunteers to assess their satisfaction and comfort level with
medical care; and annual chart documentation reviews. While Volunteer survey
information on satisfaction is used by the Quality Improvement Unit at an aggregate level
as an overall indicator, it is not an indicator of the quality of health care provided.

Additionally, there is no standard mechanism for country directors to request assistance
from OMS if there are questions or concerns about the quality of care provided by a
PCMO. Issues raised by country directors are addressed on an ad-hoc basis; however, it
is left to the country director to determine whether and how to contact OMS for
assistance. Volunteers do not have an avenue for a “second opinion.”

Standard OMS assessments did not indicate problems with health care in Morocco. In
fact, the February 2008 OMS site visit noted PC/Morocco as having an “efficient and
comprehensive health program.” The overall summary stated:

       The [OMS] evaluator noted that PCMO staff has done an excellent job of
       providing health care to Volunteers at the Morocco post. Care is
       organized and delivered by three PCMOs, two MDs and RN. They have
       been proactive in identifying areas of improvement and taking the
       necessary action for implementation. The health suite is capable of
       serving as a model for Peace Corps.

Annual documentation reviews of a post-selected sample of charts did not reveal any
problems.

However, starting in the fall of 2008, multiple Volunteer concerns regarding health care
were forwarded by the country director in Morocco to OMS‟ Quality Improvement Unit.

                                                                                         11
Concerns were raised in October 2008, November 2008, and March 2009.6 On May 4,
2009, the Chief of Quality Improvement informed the OMS Director by memo of
concerns raised by Volunteers serving in Morocco with the quality of health care.

The OMS Director visited Morocco in June 2009 to obtain further information and to
observe PCMO performances. He “did not find any issues of malpractice or inappropriate
conduct,” but noted Volunteer perceptions that “PCMOs are „too busy‟ and that
[Volunteers] do not call them with questions so as not to „bother them‟ because they
„work too hard.‟ In his report, he found that Volunteers had insufficient emotional
support and that they expressed a strong desire to talk to an Anglophone health care
provider from a western background.

OMS staff reported concerns with the agency‟s lack of a medical audit function and no
medical auditors on staff. While OMS makes the determination of the skills and
experience requirements for PCMOs in any given country, there is no standard process
that assesses whether the providers‟ skills are being appropriately put to use and whether
the work of the medical unit is being conducted in an efficient manner. Other than
TG200, which discusses a general guideline for staffing ratios of PCMOs to Volunteers,
the OIG found no agency mechanism to determine staffing requirements.

                    We recommend:

                    12. That Volunteer Support, Global Operations, and OSIRP
                        determine appropriate indicators of quality of medical and mental
                        health services provided to Volunteers.

                    13. That Global Operations and OMS determine a system for
                        sufficient oversight of PCMOs to ensure quality and accountability
                        of clinical processes.

                    14. That OMS evaluate its current assessments and modify, as
                        necessary, to ensure quality and accountability of clinical
                        processes.




6
    The current PC/Morocco country director started at the post in September 2008.

                                                                                        12
Peace Corps does not have a sentinel event policy.

Though standard in the healthcare field as a practice for improving quality, neither OMS
nor PC/Morocco has a requirement to analyze or follow-up on sentinel events.
Furthermore, PCM section 265 on the “Overseas Death of a Volunteer/Trainee” and
Technical Guideline 165 on “Volunteer Death” do not outline a role for OMS.

By the onset of our assessment, Peace Corps had not performed a sentinel event analysis
of PCV/      death, though it was discussed with the OMS staff as a standard response in
the healthcare field. The OIG questions why Peace Corps does not systematically
employ this standard practice for learning from critical situations and improving quality.

The primary intent of these reviews are to learn from and identify contributory factors
and root causes, identify systems and processes that require improvement, and identify
strategies to prevent or minimize risks of future recurrence of serious and sentinel events.
In support of its mission to improve the quality of health care provided to the public, The
Joint Commission7 includes the review of organizations' activities in response to sentinel
events in its accreditation process. It defines a sentinel event as follows: “a sentinel event
is an unexpected occurrence involving death or serious physical or psychological injury,
or the risk thereof.

                  We recommend:

                  15. That the agency develop a sentinel event policy.




7
  The Joint Commission, an independent not-for-profit organization, accredits and certifies more than
17,000 health care organizations and programs in the United States. Joint Commission accreditation and
certification is recognized nationwide as a symbol of quality that reflects an organization‟s commitment to
meeting certain performance standards.


                                                                                                         13
                   LIST OF RECOMMENDATIONS
We recommend:

 1. That the agency assess whether resources and expertise are aligned to
    provide sufficient oversight to overseas health units.

 2. That OMS develop an effective mechanism for closer clinical oversight
    for PC/Morocco.

 3. That OMS develop standard definitions of morbidity and significant
    illness and define an escalation policy.

 4. That PC/Morocco define a medical escalation policy.

 5. That OMS and PC/Morocco develop a telephone triage policy for
    PC/Morocco.

 6. That OMS and PC/Morocco develop a clear policy and procedures
    to ensure that patient information is documented and transferred
    appropriately if there is a transition in care.

 7. That OMS develop a policy on scope of practice.

 8. That OMS develop an oversight mechanism to ensure sufficient
    clinical oversight of scope of practice.

 9. That Global Operations, OMS, and OACM ensure personal
    services contracts specify and delineate PCMO clinical
    responsibilities, particularly when they differ based on level of
    training or experience.

 10. That PC/Morocco hire a U.S. or third country national PCMO or
     APCMO to provide closer clinical oversight to PC/Morocco‟s
     health unit.

 11. That OMS assess ways to increase clinical supervision of PCMOs,
     in accordance with American standards, and work with Global
     Operations to implement the needed changes.

 12. That Volunteer Support, Global Operations, and OSIRP determine appropriate
     indicators of quality of medical and mental health services provided to
     Volunteers.




                                                                                  14
13. That Global Operations and OMS determine a system for sufficient oversight of
    PCMOs to ensure quality and accountability of clinical processes.

14. That OMS, evaluate its current assessments, and modify as necessary, to ensure
    quality and accountability of clinical processes.

15. That the agency develop a sentinel event policy.




                                                                                     15
         REPORT FRAUD, WASTE, ABUSE,
            AND MISMANAGEMENT

Fraud, waste, abuse, and mismanagement in government affect
everyone from Peace Corps Volunteers to agency employees to the
general public. We actively solicit allegations of inefficient and
wasteful practices, fraud, abuse, and mismanagement related to
Peace Corps operations domestically or abroad. You can report
allegations to us in several ways, and you may remain anonymous.




Mail:          Peace Corps
               Office of Inspector General
               P.O. Box 57129
               Washington, DC 20037-7129

Phone:         24-Hour Toll-Free:                  800.233.5874
               Washington Metro Area:              202.692.2915


Fax:           202.692.2901

Email:         oig@peacecorps.gov




                                                                     1
